                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

    Case Number: A03080043
                                                                                  11          Page 1 of 1




         An allegation received1 from an undergraduate student conveyed his admission that fabricated
         data first appeared in a poster presentation2describing the work of undergraduate researchers,
         and was subsequently included without his knowledge in a publication3that described some of
         the same work, and which acknowledges NSF support. The poster presentation serves
         appropriately to highlight the research accomplishments of undergraduate students, but the
         scientific impact of the poster presentation on the larger field of research is minimal. The poster
         presentation is not listed in scientific databases, nor does the poster presentation appear to be
         cited in a Science Citation Index search. Therefore, the possible appearance of fabricated data in
         this particular poster presentation is of no substantial consequence to NSF or to the scientific
         community. .

         Within the published paper, the alleged fabricated experimental data is used only as a template to
         demonstrate a computational algorithm, and the values that can be derived from its application.
         The data is not connected to any particular chemical material, and the data appear in a tertiary
         journal that has had no discernible scientific impact. Because the scientific merits of the paper
         are metrological (dealing with process) rather than phenomenological (dealing with a particular
         scientific property of a specific material), the appearance of the alleged fabricated data is not of
         significant scientific consequence, and therefore does not intrinsically harm NSF's interests.
         Consequently, the appearance of potentially fabricated data in the tertiary publication does not
         justify further action.

         Accordingly, this case is closed.




1         ' redacted.
           redacted.
           redacted.


L

NSF OIG Form 2 (1 1/02)
